                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A09060055                                                                       Page 1 of 1



                  NSF OIG received an allegation in which the Complainant I raised (1) concerns. over the
          quality of research performed on an NSF award;2 and (2) concerns as to how the project has been
          managed by the Pl. 3 One, of the Complainant's concerns was his not receiving funding to which he
          believed he was entitled under the award.

                  The University4 conducted an inquiry intothe concerns over quality of research. The Inquiry
          Committee found no evidence of research misconduct or mismanagement, and concluded the
          Complainant's allegations were not made in good faith. Specifically, the Committee found the
          Complainant raised the concerns because the PI was denying him ~ward funds due to his lack of
          collaborative participation in the overall project. Evidence showed the Complainant had even
          submitted documentation to his sponsored research office; without the PI's knowledge, requesting
          grant funds for work on the award he had not completed ..

                  The University conducted an internal audit on the award and found no evidence of fiscal
          mismanagement. The internal audit raised, and the University addressed, the need for a new internal
          control; forms requesting reimbursement now require signatures of the PI and Co-PIs.

                 Our review of the inquiry report and internal audit concurred with the University's
          assessment; we conclude there is no evidence to substantiate the allegations.

                    This case is closed with no further action taken.




          2


          4




NSF OIG Form 2 (J 1/02)
